quinn emanuel trial lawyers | los angeles
865 South Figueroa Street, 10th Floor, Los Angeles, California 90017-2543 | TEL (213) 443-3000 FAX (213) 443-3100

WRITER'S EMAIL ADDRESS
kathleensullivan@quinnemanuel.com

March 12, 2021
VIA ELECTRONIC FILING AND FEDEX
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Common Ground Healthcare Cooperative, et al. v. United States, No. 20-1200

Dear Mr. Harris:
Petitioners in the above-captioned case hereby give blanket consent to the filing of briefs
amici curiae in support of petitioners, respondent, or neither party.
Thank you for your attention to this matter.
Very truly yours,

Kathleen M. Sullivan
cc: Counsel for Respondent (by email)

quinn emanuel urquhart & sullivan, llp
LOS ANGELES | NEW YORK | SAN FRANCISCO | SILICON VALLEY | CHICAGO | WASHINGTON, DC | HOUSTON | SEATTLE | BOSTON | SALT LAKE CITY
LONDON | TOKYO | MANNHEIM | HAMBURG | PARIS | MUNICH | SYDNEY | HONG KONG | BRUSSELS | ZURICH | SHANGHAI | PERTH | STUTTGART

